Department of Homeland Security
   Ofﬁce of Inspector General

      Information Technology Management
       Letter for the FY 2009 U.S. Customs
           and Border Protection (CBP)
            Financial Statement Audit
                     (Redacted)




OIG-10-109                           August 2010
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 25028




                                                            Homeland
                                                            Security
                                           AUG 111010
                                             Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the u.s. Customs and
Border Protection component of the FY 2009 DHS financial statement audit as of September 30,
2009. It contains observations and recommendations related to information technology internal
control that were not required to be reported in the financial statement audit report, November
13,2009 and represents the separate restricted distribution report mentioned in that report. The
independent accounting firm KPMG LLP (KPMG) performed the audit ofCBP's FY 2009
financial statements and prepared this IT management letter. KPMG is responsible for the
attached IT management letter dated January 22,2010, and the conclusions expressed in it. We
do not express opinions on DHS' financial statements or internal control or conclusion on
compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Assistant Inspector General
                                     Information Technology Audits
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036


January 6, 2010

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Customs and Border Protection

Ladies and Gentlemen:
We have audited the consolidated balance sheets of the Customs and Border Protection (CBP), a
component of the U.S. Department of Homeland Security (DHS), as of September 30, 2009 and 2008,
and the related consolidated statements of net cost, changes in net position, custodial activity, and the
combined statement of budgetary resources (referred to herein as “consolidated financial statements”)
for the years then ended. In planning and performing our audit of the consolidated financial
statements of CBP, in accordance with auditing standards generally accepted in the United States of
America, we considered CBP’s internal control over financial reporting (internal control) as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements but not for the purpose of expressing an opinion on the effectiveness of CBP’s
internal control. Accordingly, we do not express an opinion on the effectiveness of CBP’s internal
control. In planning and performing our fiscal year 2009 audit, we considered CBP’s internal control
over financial reporting by obtaining an understanding of the design effectiveness of CBP’s internal
control, determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. To achieve this purpose, we did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of CBP’s internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of CBP’s internal control over financial reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.
Our audit of CBP as of, and for the year ended, September 30, 2009 disclosed a material weakness in
the areas of Information Technology (IT) access controls, security management, and segregation of
duties. These matters are described in the IT General Control Findings by Audit Area section of this
letter.
The material weakness described above is presented in our Independent Auditors’ Report, dated
January 6, 2010. This letter represents the separate restricted distribution letter mentioned in that
report.




                                   KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                   member firm of KPMG International, a Swiss cooperative.
The control deficiencies described herein have been discussed with the appropriate members of
management and communicated through a Notice of Finding and Recommendation (NFR), and are
intended For Official Use Only. Our audit procedures are designed primarily to enable us to form an
opinion on the consolidated financial statements, and therefore may not bring to light all weaknesses
in policies or procedures that may exist. We aim to use our knowledge of related to CBP gained
during our audit engagement to make comments and suggestions that are intended to improve internal
control over financial reporting or result in other operating efficiencies.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key CBP financial systems and IT infrastructure within the scope of the FY 2009 CBP
consolidated financial statement audit in Appendix A; a description of each internal control finding in
Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments related to
certain additional matters have been presented in a separate letter to the Office of Inspector General
and the CBP Chief Financial Officer dated January 6, 2010.

This communication is intended solely for the information and use of DHS and CBP management,
DHS Office of Inspector General, OMB, U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




Very truly yours,
                              Department of Homeland Security
                             U.S. Customs and Border Protection
                          Information Technology Management Letter
                                   September 30, 2009



                                    TABLE OF CONTENTS
 


                                                                                               Page

Objective, Scope, and Approach                                                                  1
 


Summary of Findings and Recommendations                                                         2
 


IT General Control Findings by Audit Area                                                       3
 


    Findings Contributing to a Significant Deficiency in IT                                     3


       Access Controls                                                                          3
 


       Security Management                                                                      4


       Segregation of Duties                                                                    5


    Other Findings in IT General Controls                                                       5


       After-Hours Physical Security Testing                                                    5


       Social Engineering Testing                                                               6
 


Application Control Findings                                                                    10
 


Management’s Comment and OIG Response                                                           10
 

                                 APPENDICES
 


Appendix                                        Subject                                        Page

            Description of Key Financial Systems and IT Infrastructure within the Scope of 

A                                                                                               11
            the FY 2009 CBP Financial Statement Audit


B           FY 2009 Notices of IT Findings and Recommendations                                  13



                 - Notices of Findings and Recommendations – Definition of Severity Ratings     14
 


            Status of Prior Year Notices of Findings and Recommendations and Comparison
C                                                                                               29

            to Current Year Notices of Findings and Recommendations


D           Management’s Comment                                                                31
 

                     Department of Homeland Security
                    U.S. Customs and Border Protection
                 Information Technology Management Letter
                          September 30, 2009

E   Report Distribution                                     33
                               Department of Homeland Security
                              U.S. Customs and Border Protection
                           Information Technology Management Letter
                                    September 30, 2009

                      OBJECTIVE, SCOPE, AND APPROACH
We have audited the consolidated balance sheets of the United States (U.S.) Department of Homeland
Security’s (DHS) U.S. Customs and Border Protection (CBP) as of September 30, 2009, and related
consolidated statements of net cost, changes in net position, custodial activity, and the combined
statements of budgetary resources (hereinafter, referred to as “consolidated financial statements”) for
the years then ended. The overall objective of our audit was to evaluate the effectiveness of
Information Technology (IT) general controls of CBP’s financial processing environment and related
IT infrastructure as necessary to support the engagement. The Federal Information System Controls
Audit Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the basis
of our audit as it relates to the IT general control assessment at CBP. The scope of the IT general
controls assessment is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and extent
of review that generally should be performed when evaluating general controls and the IT environment
of a federal agency. FISCAM defines the following six control functions to be essential to the
effective operation of the general IT controls environment.

•	 Security management (SM) – Controls that provide a framework and continuing cycle of activity
   for managing risk, developing security policies, assigning responsibilities, and monitoring the
   adequacy of computer-related security controls.
•	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and
   disclosure.
•	 Configuration Management (CM) – Controls that help to prevent the implementation of
   unauthorized programs or modifications to existing programs.
•	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations,
   thus deterring unauthorized actions or access to assets or records.
•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed from within select CBP
facilities, and focused on test, development, and production devices that directly support CBP
financial processing and key general support systems.

In addition to testing CBP’s general control environment, we performed application control tests on a
limited number of CBP financial systems. The application control testing was performed to assess the
controls that support the financial systems’ internal controls over the input, processing, and output of
financial data and transactions.
•	 Application Controls (APC) - Application controls are the structure, policies, and
    procedures that apply to separate, individual application systems, such as accounts
    payable, inventory, payroll, grants, or loans.

                                                   1
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                     September 30, 2009

           SUMMARY OF FINDINGS AND RECOMMENDATIONS
During fiscal year (FY) 2009, CBP took corrective action to address many prior-year IT control
deficiencies. For example, CBP made improvements in the tracking of security awareness completion,
the controlling of emergency and temporary access to Automated Commercial System (ACS), and the
recertification of National Data Center (NDC) Local Area Network (LAN) accounts. However, during
FY 2009, we continued to identify IT general control deficiencies at CBP. The most significant
deficiencies from a financial statement audit perspective related to controls over access to programs
and data. Collectively, the IT control deficiencies limited CBP’s ability to ensure that critical financial
and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these deficiencies negatively impacted the internal controls over CBP
financial reporting and its operation and we consider them to collectively represent a significant
deficiency for CBP under standards established by the American Institute of Certified Public
Accountants (AICPA). The IT findings were combined into one significant deficiency regarding IT
for the FY 2009 audit of the CBP consolidated financial statements.

Although we noted improvement, the conditions identified at CBP in FY 2008 have not been
completely addressed because CBP still faces challenges related to the merging of numerous IT
functions, controls, processes, and organizational resource shortages. During FY 2009, CBP took
steps to address these conditions. Despite these improvements, CBP needs further emphasis on the
monitoring and enforcement of access controls as well as implementing and enforcing the CBP-wide
security certification and accreditation (C&A) program. Many of the issues identified during our
review, which were also identified during FY 2008 and prior can be addressed through a more
consistent and effective security C&A program and security training program.

While the recommendations made by us should be considered by CBP, it is the ultimate responsibility
of CBP management to determine the most appropriate method(s) for addressing the deficiencies
identified based on their system capabilities and available resources.




                                                    2
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                  Department of Homeland Security
                                 U.S. Customs and Border Protection
                              Information Technology Management Letter
                                       September 30, 2009


              IT GENERAL CONTROL FINDINGS BY AUDIT AREA 

Findings Contributing to a Significant Deficiency in IT at the Component Level
Conditions: In FY 2009, the following IT and financial system control deficiencies were identified at
CBP. Several of the issues identified during our FY 2009 engagement were also identified during FY
2008. The following IT and financial system control deficiencies contribute to a significant deficiency
for financial system security.
Access Controls – we noted:
    1.	 The log of ACS access profile changes is not regularly reviewed by personnel independent
        from those individuals that have made the changes.

    2.	 CBP does not maintain authorizations for personnel that have administrator access to 

             .


    3.	 Parameters for all mainframe audit and system utility logs are not configured to collect 

        appropriate data. 


    4.	 The following issues in regard to ACS Security Profile Change Log Procedures:

               a.	 Procedures do not define how often the ACS security profile change audit logs are
                   reviewed;
               b.	 Procedures do not describe how evidence of the review process is created by the ACS
                   Information System Security Officer (ISSO)/Independent Reviewer; and
               c.	 Procedures do not define the sampling methodology that is used to select ACS profile
                   change security logs for review.

    5.	 Automated Commercial Environment (ACE) audit logs are not being reviewed on a regular
        basis.

    6.	 A total of 5 out of the 25 sampled NDC LAN audit logs were either blank or did not contain
        pertinent audit log information.

    7.	           passwords were not required to be case sensitive for approximately half the fiscal year
           and therefore did not meet CBP and DHS requirements.

    8.	 Procedures on how to generate the system utility log reports for the Mainframe ISSO’s review
        do not exist.

    9.	 The control option to limit the number of failed logon attempts to the                 was not 

        configured properly. 


    10.	         was not configured to disable accounts after 45 days of inactivity for the full fiscal year,
           as required by CBP and DHS policy.



                                                       3
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                     September 30, 2009

   11. ACS Information Security Agreements (ISAs) for all identified participating government
       agencies have not been documented as required by CBP and DHS policies.

   12. Initial access requests and approvals for 30 out of 45 individuals granted access to ACE during
       FY 2009 could not be provided.

   13.	       portal accounts for separated employees are not timely removed as required by CBP and
          DHS policy.

   14. Access request documentation for individuals who had their ACS access profiles modified
       during FY 2009 was not consistently maintained.

   15. The review of SAP profile changes consisted of only a review of access deletes and did not
       include a review of additions of new users and modification to user ID’s (change/addition of
       profiles).

   16. Certain individuals were not appropriately limited to temporary/emergency	          access as
       required by the Chief Information Security Officer (CISO).

   17. Certain individuals did not have CISO approval for their emergency access to 	    .
       Additionally, it was noted that there was one instance in which the emergency access was
       granted in error without authorization and three instances where the improper form was used
       to request emergency/temporary access; and,

   18. Formal access documentation for 3 ACE National Security Control Officers (SCOs) created in
 

       FY 2009 and 37 ACE Field SCOs created in FY 2009 were reviewed. The following 

       exceptions were noted: 


             a.	 Two of the three National SCOs were not authorized and their roles were added in
                 error.
             b.	 One National SCO was approved through a manual recertification and initial
                 authorization request and/or approval could not be provided.
             c.	 Thirty-six of the thirty-seven field SCO’s initial authorization and approvals could not
                 be provided. While these accounts were approved through the account recertification
                 process, it could not be determined who performed the recertification and what their
                 authorization level was.

Security Management – we noted:
   1.	 A complete and accurate listing                                        . It was noted that the list
       did not contain accurate                                         .

   2.	 There are a significant number of non-                          workstations that do not appear
       on the        listing of workstations, as maintained by the       administrators, and therefore
       do not have                   installed.

   3. A complete, up-to-date listing of all CBP workstations is not maintained.

                                                    4
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                     September 30, 2009

    4.	 Of forty-five selected individuals that had separated in FY 2009, 19 of these individuals did
        not have a completed CBP-241 form on file.

    5.	 Twenty-four out of 60,750 AD workstations did not have virus protection installed.
        Additionally, it could not be determined what percentage of non-AD workstations have virus
        protection installed.

    6.	 A new directive was issued requiring the use of the Contractor Tracking System (CTS).
        However, this directive refers to Department of Treasury policies, and therefore is outdated as
        CBP is no longer a part of Treasury. Additionally, CBP-242 contractor separation forms were
        not appropriately completed for 3 out of 45 selected CBP contractors.

    7.	 Non-Disclosure Agreements (NDAs) for 8 out of 45 selected contractors were signed several
        months after their hire date. Additionally, one NDA did not have a witness signature,
        indicating that the NDA was not appropriately completed.

    8.	 There are six individuals within the Office of Information Technology (OIT) that are in
        critical sensitive positions and have not had their periodic reinvestigations completed within
        the five year time frame.

    9.	 The requirement to sign a Rules of Behavior (ROB) form is not implemented consistently.
        Specifically, 10 out of 40 selected individuals with systems access do not have a signed ROB
        form on record. Additionally, 11 individuals signed the ROB form months after the
        requirement was implemented.

    10. During our technical testing, configuration and patch management exceptions were identified
        on AD Domain Controllers and hosts supporting the SAP and ACE applications.


Segregation of Duties – we noted:
    1.	         is not currently configured to restrict access to least privilege for performing job
          functionality as required by CBP policy.



Other Findings in IT General Controls
After-Hours Physical Security Testing
We performed after-hours physical security testing to identify risks related to non-technical aspects of
IT security. These non-technical IT security aspects include physical access to media and equipment
that houses financial data and information residing on a CBP employee’s/contractor’s desk, which
could be used by others to gain unauthorized access to systems housing financial information. The
testing was performed at various CBP locations that process and /or maintain financial data as shown
in the following table.



                                                   5
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                 Department of Homeland Security
                                U.S. Customs and Border Protection
                             Information Technology Management Letter
                                      September 30, 2009


                Security Weaknesses Observed During After Hours Physical Security Testing
                                                   CBP Locations

                                                Building        Building        Building
                                                                                                 Total
                                                                                               Exceptions
      Exceptions Noted       Building                                                           by Type
 Passwords                      0                7                2                  1             10
 For Official Use Only          1                4                8                 13             26
 (FOUO) Documents
 Keys/Badges                    3                2                1                 1                7
 Personally Identifiable        7                7                5                 3               22
 Information (PII)
 Server Names/IP                0                2                0                 0               2
 Addresses
 Unsecured Laptops              0                1                1                 1               3
 Unsecured External             0                0                0                 4               4
 Drives
 Credit Cards                   0                0                0                 2               2
 Classified Documents           0                0                0                 0               0
 Other –U.S. Government         0                0                0                 1               1
 official passport
 Total Exceptions by           11               23               17                 26              77
 Location
 Source: CBP management and KPMG direct observation and inspection of work areas.


Note that approximately 15 desks / offices were examined for each one of the columns in the above table.


  Social Engineering Testing
  Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
  action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
  enabling computer system access. The term typically applies to deception for the purpose of
  information gathering, or gaining computer system access.

   Locations       Total Called     Total Answered         Number of people who provided a password
  CBP Sites             30                 10                                 2

  Recommendations: We recommend that the CBP OIT, in coordination with the Office of Finance
  (OF), make the following improvements to the CBP financial management systems and processes.
  For access controls, we recommend that CBP:
      1.	 Implement the review of ACS profile change logs on a periodic basis by an independent
          reviewer and that CBP formalize the procedures in detail for the review of ACS security
          profile change logs.


                                                     6
   Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                             Department of Homeland Security
                            U.S. Customs and Border Protection
                         Information Technology Management Letter
                                  September 30, 2009

  2.	 Implement procedures that have been developed to restrict access to mainframe administrative
      capabilities and require documented authorization requests and approval for each person
      requiring access to the mainframe administrative capabilities.

  3.	 Properly configure mainframe audit and system utility logs to capture appropriate data for the
      NDC Mainframe system.

  4.	 Create detailed procedures that document the review process for ACS profile change
      logs that includes the documented evidence of review.

  5.	 Implement the procedures that have been established for reviewing ACE audit logs on a 

      weekly basis to be in compliance with DHS guidelines. 


  6.	 Conduct a more thorough review of NDC LAN audit logs to ensure that logs are capturing all
      necessary information and that no blank logs exist. Further, CBP must ensure that audit logs
      are configured properly to capture all information and activity on the system.

  7.	 Create and implement formal procedures to document the generation of mainframe audit and
      system utility logs.

  8. Adjust the                  control option in the          to result in the immediate
     suspension of any user who exceeds the specified number of violations, which should be set a
     reasonably low number.

  9.	 Modify        appropriately to ensure that accounts are disabled after 45 days of inactivity.

  10. Develop a consistent and uniform naming scheme for all current and future ACS connections
      to facilitate the identification of all existing ACS connections as well as to facilitate in the
      reconciliation of existing ISAs. Once all ACS mission connections have been identified, that
      the appropriate ISAs are produced.

  11. Implement procedures to consistently document the access requests and approvals for any and
      all access creations and changes to ACE users.

  12. Investigate and implement a method to disable CBP 	        accounts for separated employees
      and contractors upon their separation or before, as determined appropriate by       security
      management and Human Resources.

  13. Implement procedures to consistently document the access requests and approvals for any and
      all access creations and changes to ACS user profiles.

  14. Implement review of 	      access change logs on a periodic basis by an independent reviewer
      and that CBP modify their procedures to ensure that all types of access changes (adds, deletes
      and modifications) are reviewed to ensure that appropriate requests and approvals were
      documented.



                                                  7
Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                Department of Homeland Security
                               U.S. Customs and Border Protection
                            Information Technology Management Letter
                                     September 30, 2009

   15. Formalize procedures around the process for granting temporary and emergency access to
            developers to ensure that access to these sensitive roles is restricted appropriately.
       Specifically, CBP should ensure controls are in place to confirm a user is authorized to be
       granted the role and that the individual had not been granted that role more than authorized by
       the Component CISO over a certain period of time.

   16. Continue to implement processes to appropriately restrict and authorize access to temporary
       and emergency roles within       and,

   17. Develop and implement procedures to restrict access to the Field and National SCO roles and
       require documented authorization requests and approval for each person requiring access to
       the

For security management, we recommend that CBP:
   1.	 Implement procedures to have                     regularly reviewed and updated by
                                                      to ensure the most accurate data is in the   for
       use by all of CBP.

   2.	 Research, identify, and implement a method to consistently account for all CBP workstations
       and perform regular reviews to ensure that all CBP workstations have Tivoli or some future
       solution, appropriately applied.

   3.	 Work with administrators across the country to ensure that new and existing workstations are
       added to a centralized accounting structure such as AD or some other more appropriate
       solution, if identified, to allow for all workstations to be accounted for in an appropriate
       fashion.

   4.	 Develop a standardized method of maintaining the CBP-241 forms to ensure that all forms for
       all separating employees are completed in a timely manner and are easily accessible.

   5.	 Research, identify, and implement a method to consistently account for all CBP workstations
       and perform regular reviews to ensure that all CBP workstations have virus protection
       installed and that it is regularly updated.

   6.	 Review the current Customs Directive regarding separation procedures for CBP contractors
       and update it to reflect the current operating environment. Additionally, CBP should require
       the consistent and accurate completion of the CBP-242 forms for all separating contractors.

   7.	 Implement a more consistent method of ensuring that contractors sign an NDA. Furthermore,
       ensure that COTRs regularly review their contractor information and that there is an NDA for
       each contract under their supervision.

   8.	 Devote adequate resources to the completion of periodic background reinvestigations that are
       due for all CBP personnel. Additionally, CBP should devote special attention to those
       individuals in critical sensitive positions requiring initial or periodic reinvestigations.


                                                  8
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                               Department of Homeland Security
                              U.S. Customs and Border Protection
                           Information Technology Management Letter
                                    September 30, 2009

    9.	 Implement a more consistent method of ensuring that all individuals with CBP systems access
        sign a ROB form. Also, methods should be developed to ensure that individuals with access
        to any and all CBP systems have a rules of behavior signed.

    10. Review their information system security awareness programs to ensure that individuals are
        adequately instructed and reminded of their roles in the protection of both electronic and
        physical CBP data and hardware. Additionally, CBP employees and contractors should be
        made especially aware of the need to protect personally identifiable information as well as
        information marked “For Official Use Only,” and,

    11. Address the specific conditions identified in the finding related to configuration and patch 

        management deficiencies. 



For segregation of duties, we recommend that:
    1.	 The ACE Security Team continue to work with the Office of Finance to identify incompatible
        roles and that procedures are developed as part of the access control process to ensure that
        these role combinations are not granted to ACE users.


Cause/Effect: Several of these deficiencies were a result of either an inadequate allocation of resources
to address prior year findings or only partial implementation of recommendations to prior year
findings. By not addressing the conditions noted above, the risk exists that deficiencies may be
exploited, in either a singular fashion or in combination which might affect the availability,
confidentiality or integrity of CBP’s financial systems and data.


Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
Office of Management and Budget (OMB) and the National Institute of Standards and Technology (NIST)
guidance. OMB Circular No. A-130, Management of Federal Information Resources, and various NIST
guidelines describe specific essential criteria for maintaining effective general IT controls. In addition
OMB Circular No. A-127 prescribes policies and standards for executive departments and agencies to
follow in developing, operating, evaluating, and reporting on financial management systems. In closing,
for this year’s IT audit we assessed CBP’s compliance with DHS 4300A. Additionally, we assessed
CBP’s implementation of CBP policy, the Information Systems Security Policies and Procedures
Handbook, version 1.3.




                                                    9
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                              Department of Homeland Security
                             U.S. Customs and Border Protection
                          Information Technology Management Letter
                                   September 30, 2009

                       APPLICATION CONTROL FINDINGS
During FY 2009, we noted that CBP is unable to prevent, or detect and correct excessive drawback
claims due to the inherent limitations     and the lack of controls therein. Additionally

                                                                                             These
control deficiencies were presented to CBP management as a material weakness.


           MANAGEMENT’S COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from Customs and Border Protection
management. Generally, CBP management agreed with our findings and recommendations. CBP
management has developed a remediation plan to address these findings and recommendations. We
have included a copy of the comments in Appendix D.

OIG Response

We agree with the steps that CBP management is taking to satisfy these recommendations.




                                                10
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                           Appendix A

                          Department of Homeland Security
                         U.S. Customs and Border Protection
                      Information Technology Management Letter
                                 September 30, 2009




                                   Appendix A 


 Description of Key Financial Systems and IT Infrastructure within the 

         Scope of the FY 2009 CBP Financial Statement Audit 





                                         11
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                          Appendix A

                               Department of Homeland Security
                              U.S. Customs and Border Protection
                           Information Technology Management Letter
                                      September 30, 2009

            DESCRIPTION OF FINANCIAL SYSTEMS AND IT INFRASTRUCTURE

Below is a description of significant United States (U.S.) Customs and Border Protection (CBP)
financial management systems and supporting information technology (IT) infrastructure included in
the scope of CBP’s fiscal year (FY) 2009 Financial Statement Audit.

Locations of Review: The CBP National Data Center (NDC) in

Key Systems Subject to Audit:
•	 Systems, Applications, and Products Release 3 (SAP R/3) - SAP is CBP’s financial management
   system that consists of a ‘core’ system, which supports primary financial accounting and reporting
   processes, and a number of additional subsystems for specific operational and administrative
   management functions. SAP is a client/server-based financial management system that was
   implemented beginning in FY 2004 to ultimately replace the AIMS mainframe-based financial
   system using a phased approach.

•	 Automated Commercial System (ACS) – ACS is a collection of business process mainframe-based
   systems used by CBP to track, control, and process all commercial goods, conveyances and private
   aircraft entering the U.S. territory for the purpose of collecting import duties, fees, and taxes owed
   to the Federal government. Key application software within ACS includes systems for data
   input/output, entry and entry summary, and collection of revenue.

•	 Automated Commercial Environment (ACE) – ACE is the commercial trade processing system
   being developed by CBP to facilitate trade while strengthening border security. ACE is being
   deployed in phases, with a final full deployment scheduled for FY 2010. As ACE is partially
   implemented now and processes a significant amount of revenue for CBP, ACE was included in
   full scope in the FY 2009 financial statement audit.

•	 Seized Assets and Cases Tracking System (SEACATS) – Used for tracking seized assets, Customs
   Forfeiture Fund, and fines and penalties.




                                                   12
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                           Appendix B
                          Department of Homeland Security
                         U.S. Customs and Border Protection
                      Information Technology Management Letter
                                 September 30, 2009




                                    Appendix B

           FY 2009 Notices of Information Technology Findings
                         and Recommendations




                                         13
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                          Appendix B
                               Department of Homeland Security
                              U.S. Customs and Border Protection
                           Information Technology Management Letter
                                      September 30, 2009



Notices of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the
Department of Homeland Security (DHS) Independent Auditors’ Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These rating are provided only to assist CBP in the development of its corrective action plans for
remediation of the deficiency.




                                                  14
 Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                                 Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009




                                                                                                                                           Repeat     Risk
   NFR #                       Condition                                            Recommendation                             New Issue
                                                                                                                                            Issue    Rating
               During testing, KPMG was informed that              KPMG recommends that CBP implement




                                                                                                             

               all data had not been completely captured           procedures to have             data regularly




                                                               





                                                                                                                 

               from all organizations within CBP to                reviewed and updated by




                                                      
 





                                                                                            

               ensure a complete and accurate listing                                                    to ensure the
                                      Additionally,                most accurate data is in the
CBP-IT-09-03   through inspection of data on current                              for use by all of CBP.                                     X         2
               contractors, KPMG noted that there were




                                                            

               data validity issues in the system,
                                                 



               KPMG noted that                     is              KPMG recommends that CBP research, identify
                                                     
 



               installed on a significant majority of              and implement a method to consistently account for




                                                                                                                           

               workstations at CBP. These workstations             all CBP workstations and perform regular reviews
                                                               





                                                                                                                         
 

               are on the                          system.         to ensure that all CBP workstations have      or
                        





               However, KPMG noted that there are a                some future solution, appropriately applied.
                                                           





               significant number of non-AD
CBP-IT-09-12   workstations that do not appear on the                                                                                        X         2
                       listing of workstations, as
               maintained by the
               We noted that these workstations do not
               have                   installed as
                                                 





               required.
                        





                                                                            15
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                     Appendix B
                                               Department of Homeland Security
                                              U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                               Repeat     Risk
   NFR #                      Condition                                     Recommendation                         New Issue
                                                                                                                                Issue    Rating
               KPMG noted that while progress has been      KPMG recommends that CBP work with
               made in accounting for all CBP               administrators across the country to ensure that
               workstations, a complete and up-to-date      new and existing workstations are added to a
               listing of all CBP workstations is not       centralized accounting structure such as AD or
               maintained. Specifically, KPMG noted         some other more appropriate solution, if identified,
               that workstations maintained within AD       to allow for all workstations to be accounted for in
               can be accounted for in a reasonable         an appropriate fashion.
CBP-IT-09-13   manner. However, workstations that are                                                                            X         2
               not in AD are difficult to account for, as
               they are not part of the Active Directory
               structure and can only be identified when
               connecting to the network, which may not
               occur regularly (i.e., laptops, unused
               equipment, etc).

               KPMG noted that when changes to a            KPMG recommends that the review of these logs
               user’s Automated Commercial System           be implemented on a periodic basis by an
               (ACS) access profile are performed, the      independent reviewer and that CBP formalize these
CBP-IT-09-21   log of these events is not regularly         procedures in detail for the review of ACS security                  X         2
               reviewed by personnel independent from       profile change logs.
               those individuals that made the changes.

               KPMG noted that authorizations are still     KPMG recommends that CBP implement
               not being maintained for personnel that      procedures that have been developed to restrict
               have administrator access to                 access to mainframe administrative capabilities and
               Procedures have been implemented to          require documented authorization requests and
CBP-IT-09-27                                                                                                                     X         2
               require documented authorization             approval for each person requiring access to the
               however evidence could not be provided       mainframe administrative capabilities.
               that these procedures are being
               implemented appropriately.




                                                                     16
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                       Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                                 Repeat     Risk
   NFR #                       Condition                                     Recommendation                          New Issue
                                                                                                                                  Issue    Rating
               KPMG selected 45 individuals that had        KPMG recommends that CBP develop a
               separated in fiscal year (FY) 2009 and       standardized method of maintaining the CBP-241
               noted that 19 of these individuals did not   forms to ensure that all forms for all separating
               have a completed CBP-241 form on file.       employees are completed in a timely manner and
CBP-IT-09-29   Additionally, KPMG noted that two            are easily accessible.                                                 X         2
               forms provided for two different
               individuals were incomplete and lacked a
               supervisor’s signature.

               KPMG noted that 24 out of 60,750 AD          KPMG recommends that CBP research, identify
               workstations, or 0.04 percent, did not       and implement a method to consistently account for
               have antivirus installed, which is a         all CBP workstations and perform regular reviews
               negligible amount. However, KPMG             to ensure that all CBP workstations have virus
               could not determine what percentage of       protection installed and that it is regularly updated.
               non-AD workstations have virus
CBP-IT-09-34   protection installed, as non-AD                                                                                     X         2
               workstations do not communicate with
               the ePolicy Orchestrator system that is
               used to maintain and update virus
               protection across CBP workstations and
               networks.




                                                                     17
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                 Appendix B
                                               Department of Homeland Security
                                              U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                           Repeat     Risk
   NFR #                      Condition                                   Recommendation                       New Issue
                                                                                                                            Issue    Rating
               KPMG noted that a Customs Directive         KPMG recommends that CBP review the current
               was provided as separation procedures for   Customs Directive and update it to reflect the
               contractors and that this directive was     current operating environment. Additionally,
               dated September 2001. The directive         KPMG recommends that CBP require the
               references Treasury policies as source      consistent and accurate completion of the CBP-242
               documentation. This directive is out of     forms for all separating contractors.
               date, as CBP is no longer a part of the
               Department of Treasury. A new directive
               was issued requiring the use of the
               Contractor Tracking System; however,
               the new directive still refers to the old
CBP-IT-09-41                                                                                                                 X         2
               directive, which has not been updated.

               Additionally, KPMG noted that CBP-242
               contractor separation forms are not
               completed consistently for separating
               CBP contractors. Specifically, KPMG
               noted that 3 separated contractors out of
               45 selected had their forms completed
               over one month after they separated from
               CBP.




                                                                   18
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                     Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                               Repeat     Risk
   NFR #                       Condition                                     Recommendation                        New Issue
                                                                                                                                Issue    Rating
               While KPMG notes that progress has            KPMG recommends that CBP implement a more
               been made in implementing procedures          consistent method of ensuring that contractors sign
               requiring the signing of non-disclosure       an NDA. KPMG also recommends that COTRs
               agreements, KPMG noted that non-              regularly review their contractors and ensure that
               disclosure agreements are still not           there is an NDA for each contractor under their
               consistently being signed by contractors      supervision.
               at CBP. Specifically, KPMG noted that
CBP-IT-09-44   non-disclosure agreements (NDAs) for 8                                                                            X         2
               out of 45 selected contractors were signed
               many months after their hire date.
               Additionally, KPMG noted that one NDA
               did not have a witness signature,
               indicating the NDA was not appropriately
               completed.

               Parameters for all mainframe audit and        KPMG recommends that CBP properly configure
               system utility logs                           mainframe audit and system utility logs to capture
                                                             appropriate data for the National Data Center
                                                   are not   (NDC) mainframe system.
               configured to collect appropriate data.
CBP-IT-09-45   Specifically, KPMG noted that one out of                                                                          X         2
               the six mainframe audit and system utility
               logs,                , did not produce any
               data during the time of testing due to an
               inaccurate filtering configuration.




                                                                      19
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                    Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                              Repeat     Risk
   NFR #                       Condition                                    Recommendation                        New Issue
                                                                                                                               Issue    Rating
               KPMG noted the following deficiencies        KPMG recommends that CBP create detailed
               related to the ACS Security Audit Logs       procedures that document the review process for
               procedures:                                  ACS profile change logs that include documented
                                                            evidence of review.
               •   Procedures do not define how often
                   the ACS security profile change audit
                   logs are reviewed.
               •   Procedures do not describe the
CBP-IT-09-48       documented how evidence of the                                                                               X         2
                   review process is created by the ACS
                   Information System Security Officer
                   (ISSO)/Independent Reviewer.
               •   Procedures do not define the
                   sampling methodology that is used to
                   select ACS profile change security
                   logs for review.

               KPMG noted that Automated                    KPMG recommends that CBP implement the
               Commercial Environment (ACE) audit           procedures that have been established for reviewing
               logs are not being reviewed on a regular     ACE audit logs on a weekly basis to be in
               basis. KPMG noted that procedures have       compliance with DHS guidelines.
CBP-IT-09-56   been established, which require that audit                                                            X                    2
               logs and events be reviewed on a weekly
               basis. However, at this time, procedures
               have not been implemented effectively.




                                                                    20
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                 Appendix B
                                               Department of Homeland Security
                                              U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                             Repeat    Risk
   NFR #                      Condition                                    Recommendation                        New Issue
                                                                                                                              Issue   Rating
               KPMG noted that 5 out of the 25 sampled     KPMG recommends that CBP conduct a more
               audit logs did not contain any audit log    thorough review of audit logs to ensure that logs
               information, such as login attempts,        are capturing all necessary information and that no
               intruder detected, login failed, Access     blank logs exist. Further, CBP must ensure that
               Control List (ACL) changed, object          audit logs are configured properly to capture all
               activity, etc. KPMG did not receive audit   information and activity on the system.
               log information for the following five
CBP-IT-09-57   selected dates:                                                                                      X                   2
               • February 16, 2009
               • April 1, 2009
               • April 7, 2009
               • April 19, 2009
               • May 4, 2009

               KPMG noted that            passwords were   As this condition was addressed during the course
               not required to be case sensitive for a     of the audit fieldwork, KPMG has no further
               period of time during our testing and       recommendation to CBP.
               therefore did not meet CBP and DHS
CBP-IT-09-58   requirements. Further testing has shown                                                              X                   2
               that passwords currently are required to
               be case sensitive and that issue has now
               been resolved.

               KPMG noted that formal procedures do        KPMG recommends that CBP create and
               not exist that describe the mainframe       implement formal procedures to document the
               audit process and how to generate the       generation of mainframe audit and system utility
CBP-IT-09-59                                                                                                        X                   2
               system utility log reports for the          logs.
               mainframe ISSO’s review.




                                                                    21
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                    Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                                Repeat    Risk
   NFR #                       Condition                                      Recommendation                        New Issue
                                                                                                                                 Issue   Rating
               KPMG noted that one user was allowed          KPMG recommends an adjustment to the Access
               1,476 failed attempts to access a dataset     Response control option to result in the immediate
               to which they were not authorized before      suspension of any user who exceeds the specified
               their access was suspended in the             number of violations, which should be set at a
                          . KPMG determined that the         reasonably low number of attempts.
CBP-IT-09-60   control option in the security software,                                                                X                   2
               which results in immediate suspension of
               any user who exceeds the specified
               number of violations, was not configured
               properly.

               KPMG noted that there are six individuals     KPMG recommends that CBP devote adequate
               within Office of Information Technology       resources to the completion of periodic
               (OIT) that are in critical sensitive          reinvestigations and initial investigations that are
               positions and have not had their periodic     due for all CBP personnel. Additionally, KPMG
               reinvestigations completed within the five    recommends that CBP devote special attention to
               year time frame. Specifically, of these six   those individuals in critical sensitive positions
               individuals, KPMG noted the following:        requiring initial or periodic reinvestigations.
               • Two individuals in critical positions
                   had their reinvestigations completed a
CBP-IT-09-61                                                                                                           X                   2
                   year or longer later than they should
                   have been.
               • Four individuals in critical positions
                   should have had their reinvestigations
                   completed and are several months
                   late. Of these four individuals, one
                   has not had his/her investigation
                   status updated since August 2002.




                                                                      22
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                        Appendix B
                                                  Department of Homeland Security
                                                 U.S. Customs and Border Protection
                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                                    Repeat    Risk
   NFR #                        Condition                                      Recommendation                           New Issue
                                                                                                                                     Issue   Rating
               Significant progress has been made in          KPMG recommends that CBP implement a more
               requiring individuals with systems access      consistent method of ensuring that all individuals
               to sign a rules of behavior before systems     with CBP systems access sign a ROB form.
               use. KPMG noted however that the               KPMG also recommends that methods be
               requirement to sign a rules of behavior        developed to ensure that individuals with access to
               (ROB) form is not implemented                  any and all CBP systems have a ROB form signed.
               consistently. Out of 40 individuals with
               systems access across the country, 10
CBP-IT-09-62                                                                                                               X                   2
               individuals did not have a signed ROB
               form on record. Additionally, 11
               individuals signed the ROB form months
               after the CBP Chief Information Officer
               (CIO’s) requirement to sign the ROB
               form. These individuals have had access
               during fiscal year 2009.

               KPMG noted that            is not configured   KPMG recommends that CBP ensure that the
               to disable accounts after 45 days of           Change Request to implement this control is
               inactivity for the full fiscal year, as        completed, appropriately approved and
CBP-IT-09-63                                                                                                               X                   2
               required by CBP and DHS policy.                implemented to disable accounts after 45 days of
                                                              inactive as required by CBP and DHS policy.

               KPMG determined that Information               KPMG recommends that CBP develop a consistent
               Security Agreements (ISAs) for all             and uniform naming scheme for all current and
               identified participating government            future ACS connections to facilitate the
               agencies have not been documented as           identification of all existing ACS connections as
CBP-IT-09-64   required by CBP and DHS policies.              well as to facilitate in the reconciliation of existing      X                   2
                                                              ISAs. Finally, KPMG recommends that once all
                                                              ACS mission connections have been identified, that
                                                              the appropriate ISAs be produced.




                                                                       23
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                  Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                              Repeat    Risk
   NFR #                       Condition                                     Recommendation                       New Issue
                                                                                                                               Issue   Rating
               KPMG inspected access request                 KPMG recommends that CBP implement
               documentation for 45 individuals who          procedures to consistently document the access
               were granted ACE access during FY             requests and approvals for any and all access
               2009. Initial access requests and             creations and changes to ACE users.
               approvals for 30 of these individuals
CBP-IT-09-65   could not be provided. Although                                                                       X                   2
               confirmation that access is appropriate
               was provided for these 30 individuals,
               access approvals prior to the creation of
               their accounts was not maintained.

               KPMG noted that CBP portal accounts           KPMG recommends that CBP investigate and
               for separated employees are removed on a      implement a method to disable CBP         accounts
               bi-weekly basis and are not removed on        for separated employees and contractors upon their
               the day of the individual’s separation as     separation or before, as determined appropriate by
               required by CBP and DHS policy.                     security management and Human Resources.
CBP-IT-09-66   Additionally, KPMG noted that one                                                                     X                   2
               contractor who had        access had
               separated from CBP but the account was
               not disabled until some time after he/she
               had separated.

               KPMG inspected access request                 KPMG recommends that CBP implement
               documentation for 45 individuals who          procedures to consistently document the access
               had their      access profiles modified       requests and approvals for any and all access
               during FY 2009. Access change requests        creations and changes to      user profiles.
               and approvals for 14 of these individuals
CBP-IT-09-67   could not be provided. Although                                                                       X                   2
               confirmation that the access is appropriate
               was provided for these 14 individuals,
               access approvals prior to the modification
               of the account were not maintained.



                                                                     24
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                Appendix B
                                                Department of Homeland Security
                                               U.S. Customs and Border Protection
                                            Information Technology Management Letter
                                                       September 30, 2009

                                                                                                                            Repeat    Risk
   NFR #                      Condition                                     Recommendation                      New Issue
                                                                                                                             Issue   Rating
               During our technical testing, patch and      During our technical testing, patch and
               configuration management exceptions          configuration management exceptions were
               were identified on the                       identified in the
CBP-IT-09-68                                                environment. The recommendations to address            X                   2
               environment. These conditions can be         these conditions can be found in the table within
               found in the table within the actual NFR.    the actual NFR.

               KPMG inspected profile change reviews        KPMG recommends that the review of these access
               performed by CBP management for              change logs is implemented on a periodic basis by
               changes to SAP access profiles and noted     an independent reviewer and that CBP modify their
               that the profile reviews were ineffective.   procedures to ensure that all types of access
               Specifically, KPMG noted that only           changes (adds, deletes and modifications) are
               access deletes were tested in the review.    reviewed to ensure that appropriate requests and
               These deletes remove an individual’s         approvals were documented.
               access and do not increase an individual’s
CBP-IT-09-69   access. Additions of new users and                                                                  X                   2
               modification to user ID’s
               (change/addition of profiles) were not
               part of the selected access changes that
               were reviewed. The reviews only
               consisted of deleted accounts and did not
               review any new accounts that had been
               added during the review period.




                                                                     25
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                       Appendix B
                                                 Department of Homeland Security
                                                U.S. Customs and Border Protection
                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                                   Repeat    Risk
   NFR #                       Condition                                       Recommendation                          New Issue
                                                                                                                                    Issue   Rating
               KPMG noted that a memo was issued by           KPMG recommends that procedures be formalized
               the Component Chief Information                concerning the process for granting temporary and
               Security Officer (CISO) to limit               emergency access to         developers to ensure that
               temporary/emergency access              to     access to these sensitive roles is restricted
               no more than four times per month.             appropriately. Specifically, KPMG recommends
               KPMG noted that the policy was adjusted        that CBP ensure controls are in place to confirm a
               to restrict access to 25 times per user, per   user is authorized to be granted the role and that the
CBP-IT-09-70                                                                                                              X                   2
               role, over a six month period. Taking into     individual had not been granted that role more than
               account this new control, KPMG noted           authorized by the Component CISO over a certain
               that during FY 2009, there was one             period of time.
               individual who was granted access to a
               temporary/emergency role 43 times over
               a six month period.

               KPMG noted that out of a selected 25           KPMG recommends that CBP continue to
               instances in which emergency access was        implement processes to appropriately restrict and
               granted to       users, 4 individuals did      authorize access to temporary and emergency roles
               not have CISO approval for their               within     .
               emergency access. Additionally, KPMG
               noted that there was one instance in
CBP-IT-09-71                                                                                                              X                   2
               which the emergency access was granted
               in error without authorization and three
               instances in which an improper form was
               used to request emergency/temporary
               access.

               KPMG noted that          is not currently      KPMG recommends that the           Security Team
               configured to restrict access to least         continue to work with the Office of Finance to
               privilege for performing job functionality     identify incompatible roles and that procedures are
CBP-IT-09-72   as required by CBP policy.                     developed as part of the access control process to          X                   2
                                                              ensure that these role combinations are not granted
                                                              to ACE users.



                                                                       26
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                                                                    Appendix B
                                               Department of Homeland Security
                                              U.S. Customs and Border Protection
                                           Information Technology Management Letter
                                                      September 30, 2009

                                                                                                                                Repeat    Risk
   NFR #                      Condition                                     Recommendation                          New Issue
                                                                                                                                 Issue   Rating
               KPMG inspected access documentation          KPMG recommends that CBP develop and
               for 3 National Security Control Officers     implement procedures to restrict access to the Field
               (SCOs) created in FY 2009 and 37 Field       and National SCO roles and require documented
               SCOs created in FY 2009 and noted the        authorization requests and approval for each person
               following exceptions:                        requiring access to ACE administrative capabilities.

               •   Two of the three National SCOs were
                   not authorized and their roles were
                   added by mistake.
               •   One National SCO was approved
                   through a manual recertification and
CBP-IT-09-73       initial authorization request and/or                                                                X                   2
                   approval could not be provided.
               •   Thirty-six of the thirty-seven Field
                   SCO’s initial authorization and
                   approval could not be provided.
                   Instead, a recertification was
                   provided, though the recertification
                   did not note who performed the
                   recertification and what authorization
                   they had to perform the
                   recertification.

               Multiple incidents of unprotected CBP        KPMG recommends that CBP review their
               information systems and data were found      information system security awareness programs to
               as a result of physical security             ensure that individuals are adequately instructed
               walkthroughs. Additionally, passwords        and reminded of their roles in the protection of both
CBP-IT-09-74   were obtained from two CBP employees         electronic and physical CBP data and hardware.             X                   2
               through social engineering techniques.       Additionally, CBP employees and contractors
               The details of this testwork can be viewed   should be made especially aware of the need to
               in the actual NFR.                           protect personally identifiable information as well
                                                            as information marked “For Official Use Only.”


                                                                     27
               Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                            Appendix C
                          Department of Homeland Security
                         U.S. Customs and Border Protection
                      Information Technology Management Letter
                                 September 30, 2009




                                  Appendix C

Status of Prior Year Notices of Findings and Recommendations,
   and, Comparison to Current Year Notices of Findings and
                       Recommendations




                                         28
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                      Appendix C

                           Department of Homeland Security
                          U.S. Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2009


   NFR No.                                                          Disposition
                              Description
                                                           Closed                 Repeat
                Automated Commercial System (ACS)
 CBP-IT-08-02   Interconnection Security Agreements          X
                (ISAs)
 CBP-IT-08-03   Contractor           Deficiencies                            CBP-IT-09-03

                National Data Center (NDC) Local Area
 CBP-IT-08-08                                                X
                Network (LAN) Audit Logs
                Disabling of Inactive Accounts on NDC
 CBP-IT-08-09                                                X
                LAN

 CBP-IT-08-12                    Installation                                CBP-IT-09-12

                Complete List of Customs and Border
 CBP-IT-08-13                                                                CBP-IT-09-13
                Protection (CBP) Workstations

 CBP-IT-08-16   Excessive ACS Emergency Access               X

 CBP-IT-08-18   Recertification of NDC LAN Accounts          X

                Review of Changes to Security Profiles
 CBP-IT-08-21                                                                CBP-IT-09-21
                in ACS
                Review of Mainframe Security Violation
 CBP-IT-08-26                                                X
                Logs
                           Administrator Access
 CBP-IT-08-27                                                                CBP-IT-09-27
                Authorization Weaknesses
                NDC LAN Access Policies and
 CBP-IT-08-28                                                X
                Procedures
                Completion of CF-241 Forms for
 CBP-IT-08-29                                                                CBP-IT-09-29
                Terminated Employees

 CBP-IT-08-34   Installation of Virus Protection                             CBP-IT-09-34

 CBP-IT-08-35   Configuration Management                     X

 CBP-IT-08-36   Patch Management                             X

 CBP-IT-08-37   Security Violation Review Process            X

                Process for Reviewing Mainframe Audit
 CBP-IT-08-38                                                X
                and System Utility Logs
                Password Configuration Weakness in
 CBP-IT-08-39   Automated Commercial Environment             X
                (ACE)
                Information System Security Manager
 CBP-IT-08-40                                                X
                (ISSM) Approval of SAP Emergency

                                                   29
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                     Appendix C

                           Department of Homeland Security
                          U.S. Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2009

   NFR No.                                                         Disposition
                             Description
                                                          Closed                 Repeat
                and Temporary Access Authorizations

                Weaknesses in the Process of Separating
 CBP-IT-08-41                                                               CBP-IT-09-41
                CBP Contractors
                Inadequate Resources at         for
 CBP-IT-08-43                                               X
                Business Continuity Testing
                Completion of Non Disclosure
 CBP-IT-08-44                                                               CBP-IT-09-44
                Agreements for CBP Contractors
                Log Configuration Weakness for NDC
 CBP-IT-08-45                                                               CBP-IT-09-45
                Mainframe System
                Review of Mainframe Audit and System
 CBP-IT-08-46                                               X
                Utility Logs
                Rules of Behavior Forms are Not Signed
 CBP-IT-08-47                                               X
                Before Gaining Systems Access
                Lack of Effective ACS Access Change
 CBP-IT-08-48                                                               CBP-IT-09-48
                Log Review Procedures
                Weak Initial Passwords Granted for New
 CBP-IT-08-49                                               X
                Accounts in ACS
                Inadequate Tracking of Security
 CBP-IT-08-50                                               X
                Awareness Training Completion
                No UNIX Hardware Maintenance
 CBP-IT-08-51                                               X
                Procedures
                Screensavers are Not Appropriately
 CBP-IT-08-52                                               X
                Configured on the NDC LAN
                Out of Date and Inaccurate ACS
 CBP-IT-08-53                                               X
                Security Administrator Procedures

 CBP-IT-08-54   ACE Access Control Weaknesses               X

                NDC LAN Accounts Created by
 CBP-IT-08-55                                               X
                Unauthorized Parties




                                              30
Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                             Appendix D

                             Department of Homeland Security
                            U.S. Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2009

                                                                           1300 Pennsylvania Avenue NW
                                                                           Washington, DC 20119



                                                                           u.s. Customs and
                                                                           Border Protection



  , APR      8-111
  MEMORANDUM FOR:               Frank Deffer
                                Assistant Inspector General
                                Infonnation Technology Audits

  FROM:                         Charles Annstrong
                                Assistant Commissioner
                                Office of Infonnation and echnology

  SUBJECT:                      Drafi Audit Report - Infonnation Technology Management Letter
                                for the FY 2009 CBP Financial Statement Audit


  In response to the memorandum dated March 10,2010 requesting written comments on the drafi
  report, responses to jts recommendations, and identification of infonnation that should not be
  publicly released, CBP OIT is providing the following comments on the remediat'ion actions that
  are being performed for the findings and recommendations from the FY 2009 audit.

  General comments

  CBP OrT concurs with the preface of the report and page 2 of the January 22. 2010 leller from
  DIG which states that this management letter is FDUD and is the restricted distribution version
  of the overall report.

  Thirty NFRs were issued to CBP on during the FY 2009 audit (I I were reissues of FY 2008
  findings and 19 were new). To date, remediation on 12 findings has been completed. Corrective
  Action Plans (CAPs) for the remaining are either under development or are in progress and their
  status is provided in the attachment.


  Access Controls

  CBP concurred with KPMG's 18 findings and recommendations in this area. Work on 12
  findings has been completed and await review by the auditors. Four other CAPs are on track for
  completion this fiscal year. Plans have not yet been received for two of the findings. The status
  of each CAP is provided in the anaclunenl.




                                                 31
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                                               Appendix D

                              Department of Homeland Security
                             U.S. Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2009




  Security Management

  eBP concurred with KPMO's ten findings and recommendations in this area. Remediation work
  has been completed on one of the findings. The Offices of Administration, Internal Affairs and
  Information Technology are cooperating to remediate the other nine findings which are expected
  to be completed by the end of the fiscal year. The status for each CAP is provided in the
  attachment.

  Segregation of Duties

  eBP concurred with KPMG's finding and recommendation in this area. CBP will continue the
  collaboration between the ACE Security Team, the Office of Administration, and the Office ofField
  Operations to identify and document incompatible roles. CBP will then develop a procedure to ensure
  incompatible roles are not assigned to the same user, unless an exception is properly authorized. The
  estimated completion date is July 15,2010.

  After-Hours Physical Security and Social Engineering Testing

  eBP concurred with KPMG's finding and recommendation in this area. The Office of
  Information Technology in conjunction with the Office oflntemal Affairs and the Privacy Omce
  is working to develop a plan to strengthen the security awareness programs for protecting
  electronic and physical data, hardware, and personally identifiable information, as well as
  information marked '"For Official Use Only The estimated completion date is October 13,
                                                ,It


  2010.



  If you have any questions concerning this response, please contact Judy Wright, Office of
  Information and Technology Audit Liaison, at (703) 286-4155.




                                                      32
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
                                                                              Appendix D

                          Department of Homeland Security
                         U.S. Customs and Border Protection
                      Information Technology Management Letter
                                 September 30, 2009


                Report Distribution

                Department of Homeland Security

                Secretary
                Deputy Secretary
                General Counsel
                Chief of Staff
                Deputy Chief of Staff
                Executive Secretariat
                Under Secretary, Management
                Acting Deputy Commissioner, CBP
                DHS Chief Information Officer
                DHS Chief Financial Officer
                Chief Financial Officer, CBP
                Chief Information Officer, CBP
                Chief Information Security Officer
                Assistant Secretary, Policy
                Assistant Secretary for Public Affairs
                Assistant Secretary for Legislative Affairs
                DHS GAO OIG Audit Liaison
                Chief Information Officer, Audit Liaison
                Audit Liaison, CBP

                Office of Management and Budget

                Chief, Homeland Security Branch
                DHS OIG Budget Examiner

                Congress

                Congressional Oversight and Appropriations Committees as Appropriate




                                           33
 

Information Technology Management Letter for the FY 2009 CBP Financial Statement Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
